No. 19-7

 

IN THE

Supreme Court of the united States

SELIA LAw, LLC,
Petitioner,

v.

CONSUMER FINANCIAL PROTECTION BUREAU,
Respondent.

On Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

BRIEF OF AMICI CURIAE
SOUTHEASTERN LEGAL FOUNDATION
AND NATIONAL FEDERATION OF
INDEPENDENT BUSINESS
SMALL BUSINESS LEGAL CENTER
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,109 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 16, 2019.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
